 Office of the Inspector General
T e n n e s s e e Va l l e y A u t h o r i t y




                 Semiannual Report
                           April 1 ~ September 30, 2006
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA)
Board of Directors and Congress on
the overall efficiency, effectiveness,
and economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
inspections, and investigations.

The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse;
(2) violations of laws, rules, or
regulations; and (3) inefficiencies in
TVA programs and operations.
                                   Tennessee Valley Authority
                                  Office of the Inspector General



         Message From the Inspector General

         I am pleased to present to you our semiannual report for the six-month period beginning April 1, 2006,
and ending September 30, 2006. The efforts of the men and women of the TVA OIG resulted in almost
$14 million in recoveries, fines/penalties, potential savings, questioned costs, or funds which could be put to
better use during this reporting period. Our staff continues to provide wide coverage of the many programs and
operations of a very diverse and complex organization. TVA, the nation’s largest public power company,
produces power through its fossil, hydroelectric, nuclear, and green power facilities for a seven-state region;
revenues from power sales total approximately $8 billion. The focus of the OIG continues to be one of promoting
excellence across all of TVA’s programs and operations.

         Our reviews during this period illustrate both the significance of our work and the cooperation and
responsiveness of TVA management. Our reviews encompass TVA contracts, Information Technology security
such as the Federal Information Security Management Act, financial-related audits including testing for
compliance with the Sarbanes-Oxley Act, inspections, and investigations. As discussed in this report, we
addressed topics such as the inherent conflict in TVA serving as a regulator over municipal utilities and
cooperatives to which TVA sells electricity, the contracting process at TVA, and TVA’s policy on land disposal.
In each case, management took our findings seriously, and we are monitoring their corrective actions.

          Our work was also recognized by the President’s Council on Integrity and Efficiency (PCIE). I note with
pride that the PCIE recognized our Contract Audit department and fraud risk assessment team with awards of
excellence. The Contract Audit department has found average cost savings of $32 million per year over the last
ten years. Their consistent large dollar findings have led to TVA management both asking for numerous contract
audits and seeking advice and training on contracting best practices. Our fraud risk assessment team
successfully implemented a novel approach to fraud detection and prevention. This program works because of
the willingness of TVA management to embrace its responsibility to protect TVA against fraud by working
hand-in-hand with the fraud risk assessment team.

         I appreciate the ongoing support of the TVA Board. I look forward to continuing to work with them and
their newest member, William Graves, as we move forward.




                                                                                               Richard W. Moore
                                                                                               Inspector General
                                                                                                 October 1, 2006
                                                                         Ta b l e o f C o n t e n t s



Executive Summary                                                                                    1

TVA Profile                                                                                          3

Office of the Inspector General                                                                      5

Special Features                                                                                    11

Audits                                                                                              18

Inspections                                                                                         24

Investigations                                                                                      31

Legislation and Regulations                                                                         44




Appendices                                                                                          46


Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          47


Appendix 2 Audit Reports Issued                                                                     48


Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   50


Appendix 4 Audit Reports With Corrective Actions Pending                                            52


Appendix 5 Investigative Referrals and Prosecutive Results                                          55




Highlights                                                                                          56




TVA Office of the Inspector General
Executive Summary



During this reporting period, we continued to support TVA by conducting objective
audits, inspections, and investigations. In accordance with our mission, our reviews are
designed to promote economy, effectiveness, and efficiency while detecting and
preventing fraud, waste, and abuse. In total, we identified almost $14 million in
recoveries, fines/penalties, potential savings, questioned costs, or funds which could be
put to better use, as outlined in the chart below.



                                STATISTICAL HIGHLIGHTS
                      April 1 ~ September 30, 2006
                    Audit Reports Issued                              26
                    Questioned Costs                          $1,411,000
                    Disallowed Costs                            $782,000
                    Funds Recovered                             $793,000
                    Funds Put to Better Use                  $10,839,000
                    Funds Realized by TVA                     $2,287,000
                    Investigations Opened                             70
                    Investigations Closed                            105
                    Fines/Recoveries/Restitution/Savings      $1,682,362
                    Criminal Actions                                   2
                    Administrative Actions (No. of Subjects)           6
                    Inspections Completed                             20


Our 26 audits and 11 other audit-related projects during this reporting period resulted in
questioned costs and the identification of areas for improvement. Highlights include
(1) contract audits which identified over $1.4 million in questioned costs and over
$10.8 million in funds which could be put to better use, (2) information technology (IT)
audits which identified needed control improvements, and (3) financial-related and
operational reviews which found most internal controls were adequately designed to
mitigate risks, but identified opportunities to improve control effectiveness. TVA
management used information from our audits to recover or disallow about $793,000
and negotiated about $2.3 million in contract cost savings.




page 1                                                           April 1 ~ September 30, 2006
                                                             Executive Summary



Our Inspections unit completed 20 projects which identified several opportunities for
improved program operations. Inspection topics included TVA’s role as regulator,
review of TVA land disposal, benefit reviews, and the TVA Nuclear Concerns Resolution
Program.

We continued our initiatives to improve communications with our stakeholders.
Highlights include (1) continued publication for our new outsourced hotline program,
Empowerline; (2) issuance of an OIG newsletter, the OIG Connection; and
(3) announcement of a rewards program for information which leads to a felony charge
or a substantial monetary recovery from individuals who defrauded TVA.

Investigations highlights include recoveries or avoided costs which totalled almost
$1.7 million. In addition, we continued to implement our proactive fraud detection and
prevention efforts, including fraud risk assessments across TVA programs. Our
investigative efforts and initiatives led to strengthened internal controls in several TVA
processes.




                                                                           Definitions
                                                               Q u e s t i o n e d C o s t s - Costs that
                                                               are unnecessary, unreasonable,
                                                               unsupported, or an alleged
                                                               violation of law, regulation,
                                                               contract, etc.
                                                               U n s u p p o r t e d C o s t s - Questioned
                                                               costs that are not supported by
                                                               adequate documentation.
                                                               F u n d s P u t t o B e t t e r U s e - Funds
                                                               that could be used more
                                                               efficiently by implementing
                                                               recommended actions.
                                                               D i s a l l o w e d C o s t s - Costs that
                                                               management agrees should not
                                                               be charged to TVA.




TVA Office of the Inspector General                                                         page 2
          T VA P r o f i l e



          On March 31, 2006, six new Board members were sworn in. This marked a change
          after 73 years from a full-time, three-member Board of Directors to a part-time
          nine-member board. On October 10, 2006, William H. Graves was sworn in as the
          seventh new Board member. The terms of two members of the prior Board have
          carried over to complete the new nine-member board.

          Below are some highlights of TVA history and operations.

           TVA was created during 1933. President

               Franklin Roosevelt asked Congress to
               create “a corporation clothed with the power
               of government but possessed of the flexibility
               and initiative of a private enterprise.” On
               May 18, 1933, Congress passed the TVA
               Act, creating TVA as a federal corporation.
               TVA’s threefold mission includes power                     President Franklin D. Roosevelt signed the legislation
                                                                                         creating TVA in 1933.
               production, environmental stewardship, and
               economic development.

           Today, TVA is the nation’s largest public power company. TVA’s power facilities

               include 11 fossil plants, 29 hydroelectric dams, 3 nuclear plants, 6 combustion
               turbine plants, a pumped-storage facility, and 17,000 miles of transmission lines.
               TVA also produces energy from three renewable sources––sun, wind, and methane
               gas from waste. The TVA service area covers 80,000 square miles in the
                                            Southeastern United States, including almost all of Tennessee
                                            and parts of Mississippi, Kentucky, Alabama, Georgia, North
                                            Carolina, and Virginia. By providing wholesale power to 158
                                            municipal and cooperative power distributors, and by directly
                                            serving 62 large industries and government installations in the
                                            Valley, TVA supplies the energy needs of 8.5 million people.

TVA provides electricity in seven states.




           page 3                                                                     April 1 ~ September 30, 2006
                                                                         T VA P r o f i l e



 As a regional development agency, TVA not only supplies affordable,

   reliable power, but also supports a thriving river system and stimulates
   sustainable economic development in the public interest. TVA
   manages the nation’s fifth largest river system. TVA dams are part of
   a totally integrated resource management system for a
                                                                               TVA dams produce electricity
                                                                                and provide flood control.
   41,000-square-mile watershed where each dam operates in
   relationship to the others for multiple purposes and public benefits, including flood
   control, maintaining navigation, providing recreational opportunities, and protecting
   water quality.

 TVA contributes to the Valley economy chiefly by keeping power rates competitive.

   This helps attract and retain industries that provide quality jobs in the region. TVA
   also helps communities promote sustainable economic development by providing
   assistance in job creation and retention and productivity improvements via capital
   investment, support of business incubators, specialized technical services and
   advice, and recruitment for new and existing industries.




TVA Office of the Inspector General                                                   page 4
Office of the Inspector General



Office Authority

Created by the TVA Board of Directors in 1985, the TVA OIG became statutory under
the Inspector General (IG) Act Amendments of 1988. The authority to appoint the TVA
IG was transferred to the President in November 2000 by Public Law No. 106-422.
The IG is responsible for conducting audits and investigations relating to TVA programs
and operations while keeping the TVA Board and Congress fully and currently informed
about problems and deficiencies. The TVA IG is independent of TVA management and
subject only to the general supervision of the TVA Board.


OIG RESPONSIBILITIES

 Promote economy and efficiency while preventing and detecting fraud, waste, and

   abuse.

 Conduct and supervise audits and investigations relating to TVA programs and

   operations.

 Keep the TVA Board and Congress fully and currently informed concerning fraud and

   other serious problems, abuses, and deficiencies relating to TVA programs and
   operations.

 Recommend corrective actions concerning problems, abuses, and deficiencies, and

   report on the progress made in implementing such actions.

 Assure any work performed by non-federal auditors complies with government

   auditing standards.

 Issue semiannual reports to TVA Board and Congress.


OIG AUTHORITIES

 Conduct any audit or investigation the IG deems necessary or desirable.

 Access all TVA records or other material.

 Issue subpoenas and administer oaths.




page 5                                                       April 1 ~ September 30, 2006
                                        Office of the Inspector General



 Receive complaints and grant confidentiality.

 Have direct and prompt access to the TVA Board.

 Hire employees and contract for services as necessary.


Organization

The OIG’s primary location is adjacent to the TVA headquarters in Knoxville,
Tennessee. To obtain broader coverage throughout the Valley, the OIG also has
an Inspections unit located in Chattanooga, Tennessee, and Investigations offices
in Mayfield, Kentucky, and in Chattanooga. The OIG consists of three primary
components: (1) Audits, (2) Inspections, and (3) Investigations.
                                                                                       The OIG is primarily
                                                                                        located in the TVA
                                                                                       Towers in Knoxville.
OIG STRATEGIC PLAN

VISION

To be a highly effective organization that promotes positive change by identifying
opportunities for improvements in the performance and efficiency of TVA’s programs
and operations.

MISSION

Promote excellence in TVA’s operations through the conduct of investigations, audits,
inspections, and advisory services designed to promote economy, efficiency, and
effectiveness and prevent and detect fraud, waste, and abuse.

LEADERSHIP PHILOSOPHY

The TVA OIG strives to be a high performing organization made up of dedicated
individuals who are empowered, motivated, competent, and committed to producing
high quality work that improves TVA and life in the Valley. Each of us has important
leadership, management, team, and technical roles. We value integrity, people, open
communication, expansion of knowledge and skills, creative problem solving, and
collaborative decisionmaking.




TVA Office of the Inspector General                                                  page 6
Office of the Inspector General



STRATEGIC GOALS

         PERFORMANCE              WORKFORCE                S TA K E H O L D E R
          Perform timely            Cultivate and            Effectively
           reviews that            retain a highly        communicate with
             address                   skilled,           stakeholders and
           stakeholder            innovative, and          deliver services
          concerns and               motivated             that meet their
         areas of highest            workforce                  needs
                risk



STRATEGIC OBJECTIVES

   Focus efforts on areas     Hire and retain the        Manage stakeholder
    of highest impact and       best                        perceptions of the
    risk                       Manage pay to stay          OIG to promote
   Ensure processes are        competitive with target     ( 1 ) h i g h c r e d i b i l i t y,
    efficient and effective     market                      and
   Maintain highest levels    Develop staff to            (2) independence and
    of quality                  achieve the highest         objectivity
   Stay abreast of             level of capabilities      Respond to customer
    emerging issues and        Motivate staff to excel     needs
    industry trends            Ensure accountability      Improve stakeholder
   Stay abreast of             in individual               awareness of OIG
    stakeholder concerns        performance                Ensure stakeholders
   Continue to develop        Promote a                   are kept informed
    innovative methods for      balanced lifestyle         Ensure stakeholders
    fraud detection                                         have an opportunity to
                                                            provide input in the
                                                            annual audit planning
                                                            process and each
                                                            i n d i v i d u a l r e v i e w, a s
                                                            appropriate
                                                           Increase effectiveness
                                                            of OIG hotline




page 7                                                    April 1 ~ September 30, 2006
                                         Office of the Inspector General



AUDITS

Audit Operations (AO) conducts and/or supervises comprehensive financial and
performance audits of TVA programs and operations. Based upon the results of such
audits, AO makes recommendations to ensure that program objectives and operational
functions are achieved effectively and efficiently. AO develops an annual audit plan to
effectively allocate audit resources. The audit plan addresses those issues, programs,
operations, and activities that most expose TVA to significant risks and/or vulnerabilities.

AO consists of three departments––Contract Audits, Financial/Operational Audits, and
IT Audits.

 Contract Audits has lead responsibility for contract compliance and

   preaward audits. In addition, this group performs reviews of TVA
   contracting processes and provides claims assistance and litigation
   support.

 Financial/Operational Audits has lead responsibility for (1) oversight of

   TVA’s financial statement audits performed by TVA’s external auditor;
   (2) reviews of TVA’s internal controls related to financial reporting, operational
   efficiency, and compliance with laws and regulations; and (3) operational reviews to
   assess the results and economy and efficiency of TVA programs.

 IT Audits has lead responsibility for audits relating to the security of TVA’s IT

   infrastructure, application controls, and general controls associated with TVA
   systems. This group also performs operational reviews of the effectiveness of
   IT-related functions. In addition to its audit mission, IT Audits is responsible for
   developing and supporting an independent OIG computer network.




TVA Office of the Inspector General                                                       page 8
Office of the Inspector General



INSPECTIONS

The Inspections unit was formed at the beginning of fiscal year (FY) 2004. Inspections
               provides flexibility to conduct limited scope policy and program
               evaluations to promote economy and efficiency in the management and
               administration of TVA programs. In accordance with the Quality
               Standards for Inspections, the objectives of the Inspections unit include
               providing a source of factual and analytical information, monitoring
               compliance, measuring performance, assessing the efficiency and
               effectiveness of operations, and/or conducting inquiries into allegations
               of fraud, waste, abuse, and mismanagement.


INVESTIGATIONS

Investigative Operations (IO) conducts and coordinates investigative activity related to
fraud, waste, and abuse in TVA programs and operations. The activities investigated
include possible wrongdoing by contractors, employees, and economic development
loan recipients. IO maintains liaisons with federal and state prosecutors and reports to
the Department of Justice whenever the OIG has reasonable grounds to believe there
has been a violation of federal criminal law. IO works with other investigative agencies
and organizations on special projects and assignments, including interagency law
enforcement task forces on terrorism, the environment, and health care.




page 9                                                          April 1 ~ September 30, 2006
                                                              Office of the Inspector General




                                                    Inspector General




                          Legal Counsel




                                                                                                          Assistant Inspector
             Assistant Inspector
                                                                    Assistant Inspector                         General
                   General
                                                       Deputy             General                          (Administration &
                  (Audits &                           Assistant       (Investigations)                       Government
                Inspections)                          Inspector                                               Relations)
                                                       General
                                                    (Inspections)
                          Contract Audits
                                                                                 Investigations                             Human
                            Manager
Audit Quality                                                                       Manager                                Resources
 Manager                                                                                                                    Manager
                             Financial/
                            Operational
                                                                                 Investigations
                          Audits Manager
                                                                                    Manager

                            Information
                            Technology
                          Audits Manager



                                                       Contacts

Inspector General                                                       Audit Quality Manager
Richard W. Moore . . . . . . . . . . . .(865) 632-4120                  Paul E. Ivie . . . . . . . . . . . . . . . . . .(865) 632-3891

Legal Counsel                                                           Contract Audits Manager
Richard P. Levi . . . . . . . . . . . . . . .(865) 632-6197             David P. Wheeler . . . . . . . . . . . . .(865) 632-4770

Assistant Inspector General (Audits &                                   Financial/Operational Audits Manager
Inspections)                                                            Louise B. Beck . . . . . . . . . . . . . .(865) 632-2622
Ben R. Wagner . . . . . . . . . . . . . . .(865) 632-2272
                                                                        Information Technology Audits Manager
Deputy Assistant Inspector General                                      Jill M. Matthews . . . . . . . . . . . . .(865) 632-4730
(Inspections)
Gregory C. Jaynes . . . . . . . . . . . .(423) 751-7821                 Investigations Manager
                                                                        Curtis D. Phillips . . . . . . . . . . . . .(865) 632-2584
Assistant Inspector General (Investigations)
Charles A. Kandt . . . . . . . . . . . . .(865) 632-3956                Investigations Manager
                                                                        C. Dale Hamilton . . . . . . . . . . . . .(865) 632-3956
Assistant Inspector General (Administration
& Government Relations)                                                 Human Resources Manager
Ronald Wise . . . . . . . . . . . . . . . . .(865) 632-4752             Kay T. Myers . . . . . . . . . . . . . . . .(865) 632-7718




                                    OIG website: http://oig.tva.gov



TVA Office of the Inspector General                                                                                       page 10
Special Features



PCIE Awards for Excellence

We nominated three teams for PCIE Awards for Excellence. The PCIE recognized two
of those teams with awards. Below we discuss and recognize the achievements of
each of these three teams.


FRAUD RISK ASSESSMENTS––AWARD FOR EXCELLENCE

The OIG developed an action plan to perform fraud risk assessments (FRAs) as an
innovative and valuable tool to prevent and detect waste, fraud, and abuse. FRAs also
assist TVA in meeting its obligations under the Sarbanes-Oxley Act of 2002 (SOX) to
document, test, and report on the effectiveness of internal controls in each of its annual
reports filed with the Securities and Exchange Commission. As set forth below, the
                                                 results from this initiative have been
                                                 significant and wide-ranging in scope,
                                                 subject matter, and outcome. They also
                                                 have identified several vulnerabilities where
                                                 we have significant investigations currently
                                                 underway.
       Fraud Risk Assessment Team


The FRA team has completed a number of reviews across several business processes
at TVA. The reviews produced several significant results, including:

 TVA managers and employees have much greater awareness of fraud risks,

   including the purpose and importance of adequate internal controls. Because of the
   broad scope of this initiative, this result by itself will pay significant dividends in the
   long run.

 The identification of process risks and control activities in place to mitigate those

   risks has improved, resulting in significantly better internal controls which, in turn, will
   lead to improved fraud prevention and detection.

 Through identification of risks and documentation of processes, process owners are

   able to more quickly remediate identified weaknesses.




page 11                                                             April 1 ~ September 30, 2006
                                                                 Special Features



FRAs address a broad range of process areas and require team members with subject
matter expertise, knowledge of internal controls, and facilitation skills to ensure process
owner participation. To ensure each FRA is effective, we use special agents trained in
facilitation and auditors who have extensive subject matter knowledge. The agents and
auditors work closely together with the process owner to identify fraud risks.
Assessments typically identify anywhere from 2 to 5 fraud risk areas and 20 to 100
potential fraud schemes. Team members and the process owners then rank each
scheme’s likelihood and significance, identify existing controls, and suggest remediation
steps where vulnerabilities are identified. To make the results user-friendly, we use a
standardized report format which includes a chart which rates each internal control and
provides suggested remediation where appropriate.

Processes reviewed include economic development loans, employee health benefits,
bulk power trading, workers’ compensation, investment recovery, specific construction,
modification and leveraged contracts, and financial statement processes such as
depreciation, time keeping, accounts payable, and convenience checks. Our reviews
have identified numerous areas for improvement in the design and effectiveness of
controls. These improvement areas included (1) additional training on responsibilities
and accountabilities, (2) enhancing procedures governing areas such as separation of
duties and identity verification, (3) tightening controls in areas such as approvals and
write-offs, (4) upgrading IT system edits and notices, and (5) identifying specific areas to
use data mining.

The team continues to work with TVA’s process owners to expand this initiative to
include most major processes across TVA. In addition, IG Richard W. Moore made
presentations about our FRA program at the annual IG retreat in May 2006 and to the
Central Intelligence Agency OIG in September 2006. We also have received interest
from within the IG community for more information about our FRA program. Details
about FRAs conducted during this reporting period are contained in the Investigations
section of this report.




TVA Office of the Inspector General                                                 page 12
Special Features



CONTRACT AUDITS––AWARD FOR EXCELLENCE

Contract Audits (CA) uses proactive and innovative best practices to consistently
identify significant cost savings, recoveries, and process improvements for TVA. Their
consistent large dollar findings have led to TVA management both asking for numerous
contract audits and seeking advice and training on contracting best practices.

                                                TVA is a $7.8 billion producer of power
                                                through its fossil, hydroelectric, nuclear,
                                                and green power facilities for a seven-
                                                state region. To support its operations,
                                                TVA spends about (1) $2.5 billion annually
                                                on labor and services and materials and
          Contract Audits Team
                                                equipment contracts and purchase orders
and (2) $1.5 billion a year under coal and coal transportation contracts. CA provides
oversight of TVA’s contracting activities through the conduct of preaward, postaward
(compliance), and contracting process reviews.

 Preaward audits are based on management requests for audit assistance either prior

   to award of a contract or prior to extension of a contract. Our audit objectives are
   generally to determine if a contractor’s cost proposal is fairly stated.

 We use a risk-based analysis to prioritize contracts for compliance reviews. Our

   analysis includes assessing materiality, impact, sensitivity, and probability of
   occurrence.

 We conduct reviews to assess TVA’s contracting processes to identify areas for

   potential improvement.


Historically, audits conducted by CA have had a significant impact for TVA. Over the
last ten years, CA has found average cost savings of $32 million per year. In addition
to the monetary savings, our team members have formed a good working relationship
with TVA management and are recognized as experts in areas of commercial
contracting. TVA management often requests CA to provide advice and training to



page 13                                                          April 1 ~ September 30, 2006
                                                                 Special Features



various procurement officials within TVA, and outside audit organizations
setting up contract audit teams have consulted with us to facilitate their efforts.


OIG OUTREACH TEAM––NOMINATED FOR AWARD FOR EXCELLENCE

Based on a perception that TVA employees, contractors, and others did not understand
the OIG or its statutory role, the IG tasked a team of OIG employees with developing
and implementing a comprehensive communication strategy to effectively increase
awareness of the OIG’s mission and responsibilities. The OIG team developed a
benchmark program to communicate the OIG message to ensure employees,
contractors, and others feel free to and will contact the OIG with their concerns. The
approach they used included (1) developing an agency-wide electronic survey to set a
baseline on perceptions about the OIG then (2) effectively communicating the
importance of completing that survey. The team used the results from the survey to
develop a three-pronged approach to increase
the awareness of and facilitate communication
with the OIG: (1) outsource the hotline to
provide a more professional service;
(2) develop a campaign to promote the
hotline; and (3) publish an OIG newsletter to
                                                                   OIG Outreach Team
address misperceptions about the OIG and
make the OIG more approachable.

Survey concerns about remaining anonymous or confidential reinforced the team’s belief
we needed to revitalize the hotline. To get a fresh start, the team outsourced the hotline
to a third-party contractor totally outside of TVA to create an easily accessible,
independent mechanism that individuals could use to report concerns. The team
worked with various contract proposals and came up with a new concept––
Empowerline. The team worked closely with the selected contractor to develop an
on-line reporting tool tailored to TVA and the OIG, an auxiliary case-management
system, and promotional campaign. (Empowerline is available on-line at
https://www.oigempowerline.com.)




TVA Office of the Inspector General                                                    page 14
Special Features



                       Innovative features include (1) specialists at a toll-free number
                       available 24/7 and an on-line system, (2) anonymous tracking so
                       we can provide status reports and follow-up questions to
                       complainants, and (3) trending and tracking data so we can
                       look for patterns in types and locations of concerns. In
                       addition, the team (1) developed guidance for the Empowerline
                       web page on the types of concerns to report to the OIG and
                       where to report other types of concerns, (2) ensured the
                       security of the data systems and reporting mechanisms, and
                       (3) ensured the hotline would fulfill the SOX requirements, which
will apply to TVA, that the agency have procedures for the confidential, anonymous
submission of certain concerns and receipt, retention, and treatment of complaints.

In addition to Empowerline itself, the team worked with the contractor to develop a
unique and striking “look and feel” for the promotional materials which was adapted for
the system’s on-line interface and the OIG web page. To further this outreach, the team
also developed a periodic electronic newsletter, the OIG Connection, with this same
“look and feel.” The newsletter addresses barriers to people coming to the OIG by
discussing concerns raised in the survey responses and providing information about
OIG activities. (The most recent OIG Connection may be accessed at
http://oig.tva.gov/connection/current.htm.) We believe the newsletter has helped to
“brand” the OIG as a recognizable entity to which individuals should report fraud,
waste, and abuse affecting TVA.




page 15                                                        April 1 ~ September 30, 2006
                                                                    Special Features



SPECIAL FEATURE

We initiated a best practices exchange with other OIGs to provide a forum to share
information to promote innovative thinking and improvements within the OIG
community. We believe these types of exchanges will benefit the IG community in
several ways. The hosting office will be encouraged
to look at the programs they have underway to
identify and recognize those they believe should be
shared, and the spontaneous reactions and
constructive suggestions they receive can help them
assess and improve those programs. The visiting
office, in turn, will be exposed to new ideas and
                                                          NASA OIG (left to right): Agent Keith Tate; Evelyn Klemstine, AIG
concepts, which may give them a fresh perspective       (Audit); Larry Anderson, Director IT Services; Madeline Chulumovich,
                                                              Executive Officer; Kevin Winters, AIG (Investigations); and
                                                                                   Robert Cobb, IG
on innovative ways to accomplish their mission.
Both offices also will benefit from the opportunity to interact with peers and experts in
an open forum on better ways to conduct operations.

In June 2006, the NASA OIG visited our offices in Knoxville, Tennessee, and during July
we visited their offices in Washington, D.C. We also are working to arrange exchange
visits with the Department of Commerce and Postal Service OIGs, and we intend to
continue these exchange programs with other offices as time permits.

During our first exchange with NASA, we discussed (1) our high performing organization
initiative; (2) the FRA program; (3) the process for evaluating and outsourcing
Empowerline, including conducting an employee survey, and our outreach plan to
publicize the OIG; (4) IT security audits, including tools and techniques and penetration
testing; (5) SOX internal control process reviews; (6) preaward and contract audits; and
(7) inspections. After hearing these presentations, Robert W. Cobb, NASA IG, spoke
favorably about our people and the programs we have underway.




TVA Office of the Inspector General                                                              page 16
Special Features



When we visited the NASA OIG, they presented information on (1) their Referral Review
Committee, which ensures allegations are properly coordinated and evaluated;
(2) managing investigative cases through their case management reporting system;
(3) developing and implementing IT systems for other OIGs; (4) developing employees
through core competencies, leadership training, and individual development plans;
(5) their computer crimes division forensic lab and capabilities; (6) addressing
technical/scientific issues in audits; (7) handling whistleblower issues; (8) establishing an
agency procurement integrity program; and (9) communicating with Congress and the
Office of Management and Budget regarding the OIG budget. We were impressed with
the depth and scope of these programs and came away with several excellent ideas for
new approaches to try.




          NASA Visit




page 17                                                          April 1 ~ September 30, 2006
                                                                                  Audits



Summary of Representative Audits

Audits are initiated from (1) the OIG annual workplan, (2) additional issues identified by
the OIG subsequent to the annual workplan, (3) issues identified by cooperative efforts
with TVA management, and (4) concerns raised by TVA management or other
stakeholders. During this reporting period, we completed 26 audits which identified
over $1.4 million in questioned costs and over $10.8 million in funds which could be put
to better use. We also identified numerous opportunities for TVA to improve program
operations. Our audits included (1) pre- and postaward contract audits,
(2) financial-related audits, (3) IT audits, and (4) operational audits. We also completed
11 other audit-related projects.


PREAWARD CONTRACT AUDITS

To support TVA management in negotiating procurement actions, we completed six
preaward audits of cost proposals submitted by companies for construction,
modification, and supplemental maintenance services; archaeological services; design
and installation of hydrated lime injection systems; and hydro-generator services. Our
audits identified $0.1 million in questioned costs and $7.3 million in potential savings
opportunities for TVA to negotiate. Some of our specific findings included (1) billing
rates being proposed for costs that were already being recovered under other cost
recovery rates, (2) overstated fringe benefit rates, and (3) pricing methodologies for
fixed-price tasks that would increase TVA’s prices 30 percent over the prices it is
currently paying. TVA has or is planning to use the results of our findings to negotiate
better contract terms.


CONTRACT COMPLIANCE AUDITS

During this reporting period, we completed nine contract compliance audits that
identified $1.3 million in ineligible and unsupported costs and another $3.5 million in
costs to be avoided. Highlights of the audits follow.




TVA Office of the Inspector General                                                   page 18
              Audits



               We determined the compensation clauses in TVA’s contracts for boiler pressure parts

                   and burner parts were not adequate for determining and evaluating prices to be
                   billed. We recommended TVA management (1) incorporate specific pricing
                                                                         criteria in the contracts for use in determining and
                                                                         evaluating prices and (2) revise/supplement cost
                                                                         reimbursable payment terms to specifically
                                                                         address costs/rates to be paid by TVA. TVA
                                                                         management agreed with our findings and revised
TVA’s 11 coal-fired fossil plants have a total of 59 generating units.   the contracts.

               We reviewed $5.7 million of payments TVA made to a contractor that provided

                   analysis and licensing support for tritium production at the Sequoyah Nuclear Plant
                   (SQN) from 2000 through 2003. We determined TVA had been overbilled $78,653,
                   including (1) an estimated $76,075 in unsupported labor costs and (2) $2,578 for
                   travel and material costs that were either unsupported or ineligible according to
                   contract provisions. TVA management is planning to recover the overbilled amount.

               We audited $59.2 million of costs paid by TVA to a contractor providing managed

                   security services for TVA Nuclear (TVAN) and security support for other TVA
                   organizations from 2002 through 2004. We determined TVA had been overbilled
                   $104,599 including (1) $84,779 for leased vehicle costs either not incurred or billed
                   at incorrect rates, (2) $16,221 for labor costs billed at incorrect rates, and (3) $3,599
                   of travel costs that were either unsupported or ineligible. TVA management
                   subsequently recovered the overbilled amounts from the contractor.

               We audited $12.4 million of costs billed to TVA by a contractor for welding services

                   performed for fossil and hydro projects and determined TVA had been overbilled an
                   estimated $539,194. The overbilling included (1) unsupported labor, excessive
                   subcontractor labor, and labor billed using incorrect rates; (2) ineligible and
                   overstated mobilization, travel, and per diem costs; (3) duplicate billings and
                   calculation errors on certain invoices; (4) overstated equipment rental costs; and
                   (5) miscellaneous unsupported costs. TVA management is working with the
                   contractor to settle the audit findings.



              page 19                                                                             April 1 ~ September 30, 2006
                                                                                     Audits



 We reviewed the employee recognition costs billed to TVA by a contractor providing

   engineering services for TVAN and determined the contractor had billed TVA
   $120,499 for costs it had not incurred. TVA management subsequently recovered
   $71,406 from the contractor.

 We determined a TVA contractor providing nuclear security services was incurring a

   high level of overtime due to work schedules and headcount limitations. The
   headcount limitations resulted in TVA paying $1.84 million in extra labor costs during
   2004 and 2005. We estimated if the trend continued TVA would pay an extra
   $3.5 million over the planned three-year remaining term of the contract. TVA
   management stated they had reviewed the contractor’s staffing levels and
   determined additional full-time positions were needed to man the security posts.
   Management also stated they had taken action regarding the contractor’s security
   manning requirements and shift scheduling that would reduce overtime to
   acceptable levels.

 We audited $3.2 million of costs billed to TVA by a contractor for welding services

   performed at the Browns Ferry Nuclear Plant (BFN) and SQN by one of its
   subcontractors and determined TVA had been billed $450,165 for unsupported and
   ineligible costs. The overbilling included (1) per diem
   payments that exceeded limitations or were ineligible
   under the contract, (2) ineligible mobilization/
   demobilization and travel expenses, (3) unsupported
   small tools and consumable costs, (4) labor costs that
   were either unsupported or billed at incorrect rates, and
   (5) unsupported subcontractor costs. TVA management
                                                                    TVA has three operating nuclear sites.
   is reviewing our findings and recommendations.




TVA Office of the Inspector General                                                     page 20
Audits



FINANCIAL-RELATED AUDITS

During this semiannual period, we completed 2 financial-related audits, 1 attestation
engagement, and interim testing of controls for 34 financial reporting processes to
assist with TVA’s initiative to comply with Section 404 of the SOX. Highlights of the
audits follow.

 We found no instances where TVA’s external auditor’s review of TVA interim financial

   information for the second and third quarters of FY 2006 did not comply with
   Government Auditing Standards in all material respects, including required
   communications to TVA Audit and Ethics Committee members and other
   appropriate parties.

 We completed agreed-upon procedures to assist the Center for Resource Solutions

   (CRS) in determining TVA’s compliance with the annual reporting requirements of
   CRS’ Green Pricing Accreditation Program for the year ended December 31, 2005.
   The results of these procedures related to TVA’s renewable energy initiative, “Green
   Power Switch®,” were provided to CRS.

 In support of TVA initiatives to comply with SOX requirements, we completed testing

   of financial reporting controls for 34 of the more than 80 processes determined to be
   in scope for SOX 404 compliance and issued interim reports to management.
   Management has developed a plan for completing corrective action in FY 2007.
   Testing of the remaining processes, and retesting of controls where deficiencies were
   identified and remediation has been completed, will continue during FY 2007 to
   assist TVA in preparing for SOX compliance, currently required in FY 2007.




page 21                                                        April 1 ~ September 30, 2006
                                                                                     Audits



IT AUDITS

During this reporting period, we completed six audits in the IT environment and
performed SOX readiness testing for eight IT general control areas. The six audits
pertained to (1) TVA’s annual Federal Information Security Management Act
(FISMA) review, (2) security of TVA’s network infrastructure, (3) security
controls for a vendor’s e-mail protection service, (4) physical security review of
contractor facilities for offsite storage of electronic media and paper records,
(5) pre-implementation review of TVA’s supply chain system, and (6) TVA
efforts to protect sensitive information. In these reviews, we noted:

 TVA continues to make progress in meeting FISMA requirements.

 The review of TVA’s network security, which included a blind penetration test,

   showed substantial improvement by TVA from a previous blind penetration test.

 TVA has taken steps or is in the process of implementing additional steps to align

   more closely with best practices for protecting sensitive information.

 Improvements could be made to address weaknesses in TVA and vendor logical and

   physical security controls designed to prevent unauthorized access to system
   programs and data and facilities, and general controls designed to ensure ongoing
   operations.

We also issued eight interim reports to management for testing of IT general controls
processes in scope for SOX compliance and remediation actions. Testing of the
remaining IT general controls and application controls will continue into FY 2007.

Management generally agreed with our findings and either has implemented or is in the
process of implementing corrective actions.




TVA Office of the Inspector General                                                   page 22
Audits



OPERATIONAL REVIEW OF TVA’S CONTRACTING PROCESS

Our review of TVA’s contracting process identified several areas where improvements
could result in better contract management and greater contractor compliance with
commercial terms and conditions. Although we noted many instances of good
practices being performed by various individuals in TVA’s Procurement and Strategic
Business Units, these practices were not universal. Overall, we noted (1) deficiencies in
40 percent of the 64 contracts reviewed, (2) Technical Contract Managers approving
payments without adequately reviewing pricing on 25 percent of the invoices reviewed,
and (3) internal controls were not always followed. Additionally, we surveyed
Procurement’s contract managers and purchasing agents and a representative sample
of TVA’s Technical Contract Managers regarding weaknesses and areas of improvement
in the contracting process. The most negative survey results were in training, workload,
and communications. TVA management instituted several initiatives to address most of
the issues identified in the report.




page 23                                                        April 1 ~ September 30, 2006
                                                                         Inspections



Summary of Representative Inspections

Inspections may be initiated from various sources, including (1) annual project planning,
(2) management requests, (3) audit/investigative referrals, and (4) spin-off reviews
resulting from ongoing inspections and FRAs. During this reporting period, we
completed 20 inspections that identified various opportunities for TVA to improve
program operations. Highlights of our inspections follow.


TVA’S ROLE AS A REGULATOR

We conducted a review to assess TVA role as rate regulator over municipal utilities and
cooperatives (collectively “distributors”) which purchase TVA power. The TVA Act
imposes only one regulatory requirement, prohibiting discrimination between consumers
of the same class. The TVA Act, however, also gives the Board authority to include
terms and conditions in power contracts as needed to carry out the purposes of the
Act, which include keeping rates as low as feasible. Pursuant to this authority, most
power contracts include, in addition to the required nondiscriminatory provision, terms
and conditions related to resale rates, use of revenues, and financial and accounting
requirements.

In summary, we determined:

 TVA is in a unique position as both a seller of electric power and a regulator over the

   rates charged by many of its customers. We believe there is an increasing inherent
   conflict in TVA serving as a regulator while working to ensure good customer
   relations.

 TVA routinely reviews and approves resale rates and use of funds for nonelectric

   system purposes. We determined TVA should develop additional guidelines to assist
   in their reviews.

 Thirteen distributors used electric system funds for nonelectric purposes, while the

   joint use agreements may not have been modified to permit such use.




TVA Office of the Inspector General                                                    page 24
Inspections



TVA management agreed with our recommendations, and we concur with their planned
actions.


CRAFT LABOR TIME REPORTING (BFN UNIT 1 RESTART)

                  At the request of TVAN, we reviewed Stone and Webster
                  Construction, Inc. (SWCI), craft labor time reporting at BFN Unit 1
                  Restart when SWCI switched from four ten-hour workdays to five
                  eight-hour days.

                  We determined (1) the AnalyzeTime application––which compares
                  Payroll and Human Resources data to identify potential errors in time
                  calculations––is working as intended, (2) over 99 percent of
timesheets reviewed contained all required signatures, and (3) gate-log reviews are
being conducted; however, these log reviews provide only limited information for
monitoring. We also noted:

 Absences are not tracked when an employee is temporarily assigned to another unit.

 No process exists to ensure that excused absences are monitored to identify

   potential abuse.

TVA’S ACCOUNTING FOR INSURABLE LOSSES

We assessed the adequacy of controls applicable to the accounting for costs
associated with non-nuclear insurable losses. TVA has negotiated and obtained
insurance to cover two areas of non-nuclear operations: (1) non-nuclear property and
(2) unplanned outages which covers Fossil Power Group’s nine baseload units. In
summary, we determined the TVA Corporate Insurance Risk & Analysis Group (CIR&A)
is in the process of developing policies and procedures to ensure identification of
non-nuclear insurable losses and the accounting for associated costs. According to
CIR&A, interim actions have been taken to capture the costs of non-nuclear insurable
losses.




page 25                                                        April 1 ~ September 30, 2006
                                                                     Inspections



BLUECROSS BLUESHIELD OF TENNESSEE (BCBST) DENTAL CLAIM
ADJUDICATION

We performed a limited scope review to determine if claims are being adjudicated in
accordance with the provisions of the TVA’s Dental Benefit Plan administered by
BCBST. For the two months reviewed, TVA paid $513,476 in total claims. While the
majority of claims reviewed were adjudicated properly by BCBST, we did identify an
adjudication error associated with charges for preventive services. TVA Employee
Benefits had also discovered the error and subsequently addressed the issue with
BCBST. BCBST had reimbursed TVA in the amount of $5,353.22, and reimbursement
for 16 additional charges identified by our review is pending.


OFFICE OF PERSONNEL MANAGEMENT (OPM) GUIDANCE FOR ADDRESSING
THE POTENTIAL INFLUENZA PANDEMIC

We reviewed the OPM guidance/requirements regarding a potential influenza pandemic
to determine if TVA is in compliance with OPM requirements and/or has taken other
proactive solutions. OPM has issued some guidance for federal agencies to follow in
the event of a pandemic; however, none are mandatory. TVA is currently reviewing
OPM guidance and has taken other proactive actions by adopting and adapting the
Nuclear Energy Institute’s guidelines.




TVA Office of the Inspector General                                               page 26
Inspections



TVA’S PRESCRIPTION SAFETY EYEWEAR PROGRAM

At the request of TVA Occupational Health and Workers’ Compensation, we assessed
whether policies, procedures, and key control activities ensure compliance with TVA’s
Prescription Safety Eyewear Program requirements. In summary,
we determined TVA’s policies and procedures adequately address
the eligibility requirements and process to be followed in order to
obtain prescription safety eyewear. However:

 Policies and procedures regarding prescription safety eyewear

   (1) do not address the retention of supporting documentation
   for purchases of prescription safety eyewear and (2) are not
   being complied with by all the TVA Safety Eyewear
   Coordinators.

 Policies and procedures could be strengthened to clearly

   identify the time constraints for obtaining replacement eyewear.

 Current identifiers used for employees are not unique to a single employee.

TVA management agreed with our findings and has initiated or plans to initiate
corrective action.


TVAN CONCERNS RESOLUTION PROGRAM (CRP)

TVAN’s CRP was designed to help ensure all TVA and contractor employees supporting
TVAN are free to express safety issues, concerns, or differing views to TVAN
management without fear of reprisal and all such concerns and issues are investigated
and resolved in a timely manner. We performed two separate inspections which
assessed the willingness of TVA employees and contractors to report nuclear safety
and quality issues through various avenues, including TVA’s CRP. The scope of the two
reviews corresponded to the (1) TVAN workforce, employees, and contractors with
unescorted access to TVA’s nuclear facilities, and (2) BFN contractors and TVA
employees.




page 27                                                         April 1 ~ September 30, 2006
                                                                           Inspections



Although many of the responses on the overall TVAN assessment were not as
affirmative as the prior survey, we determined that TVAN employees and contractors
generally felt free to raise nuclear safety and quality issues through some avenue. The
BFN responses we received generally compared similarly with the responses in our
overall TVAN assessment.


TVA’S SUCCESSION PLANNING

We conducted a review to determine what TVA has done to address challenges arising
from TVA’s aging workforce, retirements, and the resulting knowledge loss. Challenges
facing power utilities as a result of the aging workforce include the loss of critical
knowledge, the inability to find replacements with utility-specific skills, and the lack of
bench strength within the organization. We noted TVA has adopted an Integrated
Staffing Plan Principle as well as several initiatives to support this principle which
address the challenges arising from TVA’s aging workforce. We also noted TVA’s
succession planning initiatives include many recognized best practices, and TVA is a
recognized best practice organization related to knowledge retention.

While TVA has taken actions to address the issues arising from an aging workforce,
implementation of TVA Corporate Human Resources initiatives by the business units
can be improved. We recommended TVA management:

 Consider educating employees on the importance of self-reported retirement dates

   and how that information is used, along with providing on-going education on
   retirement benefits and planning from early in a TVA employee’s career.

 Ensure complete implementation of the Knowledge Retention Initiative, which

   supports compliance with and the success of the Integrated Staffing Plan Principle.

 Emphasize the importance of pipeline hiring to move TVA more towards being a

   developmentally oriented business.

TVA management agreed with our findings and has initiated or plans to initiate
corrective action.




TVA Office of the Inspector General                                                      page 28
Inspections



FOSSIL PLANTS DAILY COAL REPORT (DCR) VERIFICATION

In support of the OIG’s FRA of Fuel Supply, Fossil Power Group, we conducted
individual inspections to determine the accuracy of the DCR relating to ten fossil plants.
The objective of our reviews was to verify that TVA and vendor/terminal shipment
weights were accurately entered into the respective DCR for the period December 1,
2005, through May 3, 2006. The results of the inspections were issued to OIG
Investigations for review and/or further action and included:

 Of the 546 tested coal shipments from the 10 fossil plants, 34 shipments were not

   recorded in the DCR in accordance with TVA weight documentation and/or
   vendor/terminal bills of lading.

 Shipment weights for missing and/or extra rail cars were not consistently accounted

   for at plants receiving coal by train.

 Missing and extra rail cars were not consistently tracked at all fossil plants receiving

   coal by train.

 Comments were not consistently noted on the DCR when TVA or vendor/terminal

   weights were not available or when exceptions existed for certain shipments.

REVIEW OF TVA LAND DISPOSAL

We assessed TVA’s compliance with applicable policies, procedures, and laws/
regulations when conducting land disposal transactions. The TVA Act grants TVA
authority to transfer land to government agencies, corporations, partnerships, or
individuals. TVA’s River System Operations and Environment (RSO&E) is responsible for
administering the disposal of TVA land. TVA maintains 293,000 acres of reservoir
property and 35,000 acres of non-reservoir property. Non-reservoir property is not
managed by RSO&E. TVA’s overall policy on the use, acquisition, and disposal of land
is contained in TVA Code V, which was last updated in 1982. RSO&E has developed
the Disposal of Land/Landrights Process to provide disposal guidance and ensure
compliance with all applicable laws and regulations.




page 29                                                         April 1 ~ September 30, 2006
                                                                         Inspections



In summary, we noted:

 TVA’s policy on land disposal does not clearly articulate (1) criteria for considering

   which property is subject to disposal, (2) criteria for accepting or rejecting proposals,
   and (3) provisions for land swaps.

 RSO&E generally complied with the land disposal processes including (1) obtaining

   appropriate reviews and approvals, (2) ensuring independent appraisals of land
   value, and (3) receipt of payment for appraised values. However, we noted two
   instances where documentation could be improved.

 RSO&E has not scheduled reassessment of TVA’s Land Management Plans within

   their planned ten-year horizon.

 No non-compliance with applicable laws and regulations.

TVA management agreed with our findings and recommendations. During May 2006,
the Board established a moratorium on major land transactions to provide time to learn
about TVA’s real property assets and review past land transactions and current policies.
Subsequently, TVA issued a proposed TVA land policy for public comment.




TVA Office of the Inspector General                                                 page 30
Investigations



Summary of Representative Investigations

During the past six months, we closed 105 investigations based, in part, on allegations
and concerns received from ratepayers, TVA management and employees, and OIG
auditors. Our investigations, including task force projects and joint investigations with
other agencies, resulted in (1) almost $1.7 million in recoveries, projected savings, and
fines/penalties; (2) one subject indicted; and (3) one other subject convicted.

While our investigations in the past have largely been reactive, we are implementing
programs to develop a more proactive fraud detection and prevention program. Below
we discuss (1) our proactive efforts to detect and prosecute fraud, (2) FRAs, and
(3) control improvements.

During this reporting period, our investigative activities included significant long-term
savings in the workers’ compensation area, several contractor fraud cases, and a
variety of employee investigations. We also continued to support area task forces to
focus enhanced law enforcement resources.


MORE PROACTIVE FRAUD DETECTION AND PREVENTION PROGRAM

We continue to expand our fraud detection and prevention program. During this
reporting period, we continued to publicize OIG activities and our hotline, Empowerline,
and announced a new reward program.

PUBLICIZING EMPOWERLINE AND THE OIG

                  Employees, contractors, and the general public can report suspected
                  fraud, waste, or abuse affecting TVA to a new OIG-sponsored hotline
                  system, Empowerline. Empowerline is administered by a third-party
                  contractor and can be reached 24 hours a day, 7 days a week, either
                  by a toll-free-phone call or over the web. Individuals who report
                  concerns can do so anonymously or they can request confidentiality.
                  They also can use Empowerline to track the outcomes of concerns
                  they report. This outsourced system offers a more convenient




page 31                                                          April 1 ~ September 30, 2006
                                                                                       Investigations



mechanism for individuals to report their concerns and to provide
them additional assurances that they can remain anonymous or be
ensured of confidentiality.

To publicize Empowerline, we produce posters which we
periodically rotate at TVA sites throughout the Valley. We also seek
to increase use of Empowerline by publicizing both the existence of
Empowerline and OIG activities. We have redesigned our web page
(http://oig.tva.gov) to a more user-friendly format consistent with the
design of the Empowerline posters. We now issue a newsletter, the
OIG Connection, in which we directly address employee questions and concerns about
the OIG and publicize OIG activities and results. We also now put many audit and
inspection reports on our web page, and we have increased visits to employees and
others throughout the Valley. These proactive efforts have led to increased reporting of
concerns to Empowerline, as shown by the following chart.




                                                 Hotline Chart
                                 160
                                                                          139
                                 140
               Number of Calls




                                 120
                                 100
                                            83
                                 80
                                 60
                                 40
                                 20
                                  0
                                       8 months prior                 8 months after


                                                        Empowerline




TVA Office of the Inspector General                                                             page 32
Investigations



REWARD PROGRAM

Under our new reward program, a source of information (“source”) may receive a cash
reward for disclosing to the OIG information about criminal or unlawful activities
              involving TVA programs and personnel. OIG may pay cash rewards to a
              source who provides substantial information not previously known to the
              OIG, which leads to a felony charge or a substantial monetary recovery
              from individuals who defrauded TVA programs. Rewards, which are solely
              within the discretion of the IG, may be given to any person except current
              and former OIG employees and employees of other law enforcement
              agencies.

In considering whether to approve a reward, the IG may consider the timeliness,
accuracy, specificity, scope, and usefulness of the disclosure, and whether the OIG
likely would have discovered the information without the source’s assistance. The IG
also may consider (1) the circumstances under which the source acquired the
information; (2) the source’s culpability, if any, for the matters disclosed; and (3) the
potential risk to the source, if any, for having made the disclosure. The amount of the
reward may not exceed the lesser of $10,000 or an amount equal to one percent of
TVA’s total recovery as determined by the IG.


FRAUD RISK ASSESSMENTS

We work with TVA management to conduct FRAs of major processes throughout TVA.
An FRA is a process for management and business process-owners to identify and
analyze fraud risk factors that may be common to general business practices and also
specific to the organization and its operations. The OIG serves as facilitator and
consultant during the FRA process. This process is intended to identify (1) types of
fraud which can occur, (2) the likelihood and significance of fraud occurring, (3) the
controls in place to prevent fraud, and (4) actions needed to improve fraud-prevention
controls. As part of this process, we also provide fraud awareness training.




page 33                                                           April 1 ~ September 30, 2006
                                                                                Investigations



Our outreach efforts are
successful in achieving
cooperation and support from
TVA as demonstrated by
management requests for FRAs
and the candor shown by
employees during the
assessment process. These
efforts also promote working
relationships between OIG and
                                             The fraud scheme risk heat map identifies those risks which are both
                                                      probable and have a potentially significant impact.
other TVA employees.

During this reporting period, we completed FRAs in (1) Economic Development,
(2) Occupational Health and Workers’ Compensation processes, (3) Bulk Power
Trading, (4) the Valley-Wide Leveraged Contracts Program, (5) the Investment Recovery
Process, and (6) two partnering contracts. In each case, fraud risk areas, possible
fraud schemes, and potential remediation areas were identified, and management is
taking or plans to take appropriate corrective action. Examples of corrective actions
include additional training, strengthened internal controls, and improved procedures.


INVESTIGATIONS LEAD TO CONTROL IMPROVEMENTS

In addition to identifying wrongdoing, our investigations frequently highlight control
weaknesses. The following cases illustrate actions TVA management took to
strengthen controls in response to our investigations.

IMPROVED TIME REPORTING

In response to a finding that a contractor employee was falsifying timesheets,
management implemented additional measures to ensure the accuracy of contract
employees’ time reporting. Those measures include requiring contractors to report
directly to the appropriate TVA supervisor and sign a log sheet prior to beginning and
leaving work.




TVA Office of the Inspector General                                                                   page 34
Investigations



IMPROVEMENTS IN PROGRAM TO REDEPLOY SURPLUS GOVERNMENT
PROPERTY

We completed an investigation of TVA’s actions during 2001-2003 while participating in
a program administered by the General Services Administration (GSA) to redeploy
surplus government property. Our investigation identified numerous concerns regarding
actions in connection with this program, including (1) TVA’s arrangement with a
contractor to assist with this program, (2) TVA providing erroneous information to GSA
to circumvent GSA processes and obtain surplus property, and (3) the appraisal of
equipment “bartered” to a contractor in exchange for services. Management’s
corrective actions included replacing several managers in key leadership roles, stopping
participation in the GSA program unless approved in advance by a designated senior
manager, and meeting with GSA officials to resolve outstanding issues.

IMPROVED PURCHASING CARD CONTROLS

Investigation revealed an employee used TVA purchasing cards to obtain services and
merchandise for herself and members of her family, activities which were not detected
promptly. In response, management in the affected organization implemented the
following control improvements.

 All purchasing-card (VISA) receipts are now reviewed and approved monthly at a

   higher, more independent level.

 All VISA cardholders were required to attend documented mandatory face-to-face

   training with Purchasing management.

 On-line VISA training is now mandatory for all cardholders.

 The number of purchasing cards was reduced significantly at the plant level.

 Purchasing card limits were reviewed and revised. In most cases, limits were

   lowered and standardized. Changes to new limits require Senior Vice President
   approval.




page 35                                                         April 1 ~ September 30, 2006
                                                                       Investigations



 VISA purchases are now routinely discussed between the Production Manager and

   the Business Support representative.

 Management audits card holders by random selection.


INVESTIGATIONS DURING THIS REPORTING PERIOD

Below we discuss investigation results during this reporting period in the areas of
workers’ compensation, contractor fraud, and employee investigations.

WORKERS’ COMPENSATION FRAUD

This reporting period’s results involving workers’ compensation included indictment,
plea, sentencing, and forfeiture. The total long-term savings and recoveries to TVA
from all cases discussed below are projected to exceed $2.9 million.

Pursuant to the Federal Employees’ Compensation Act (FECA), TVA and other civilian
federal employees receive compensation benefits for work-related injuries. TVA pays all
the workers’ compensation charges for TVA employees. While the vast majority of
people who receive workers’ compensation are entitled to those benefits, there is a
significant minority who are not. Our investigations continue to find people who receive
total disability benefits while at the same time they engage in strenuous physical jobs or
own and operate businesses. These investigations in many cases lead to terminating
benefits for these individuals and corresponding savings for TVA.

Potential Costs of Workers’ Compensation Program Fraud

At the end of FY 2005, there were almost 1,700 individuals on TVA’s long-term rolls,
and TVA paid about $59 million in claims for that year alone. Individuals on the
long-term roll who have one or more dependents receive 75 percent of their salary
while those who have no dependents receive 67 percent. They receive these benefits,
plus cost-of-living increases, tax-free for life; there is no reduction once an individual
reaches retirement age. Thus, for example, a married 40-year-old employee with a
$50,000 salary who is injured on the job would receive $37,500 tax-free annually, or an
estimated $1.5 million over his lifetime, plus cost-of-living adjustments.




TVA Office of the Inspector General                                                   page 36
Investigations



The following chart illustrates the long-term cost savings to TVA from our workers’
compensation investigations over the past five years.
Fiscal    Investigations   Indictments/
Year        Completed      Informations   Convictions    Recoveries    Costs Avoided     Total

2002           14               0             1            $145,477     $1,164,169     $1,309,646
2003           6                0             0              92,597        892,863        985,460
2004           11               1             0                   0        857,514        857,514
2005           12               1             1             168,779      1,090,528      1,259,307
2006           13               3             2             544,265      1,801,426      2,345,691

TOTALS:        56               5             4            $951,118     $5,806,500     $6,757,618


Investigations of Workers’ Compensation Fraud

                                                    Our workers’ compensation investigations
                                                    focus on an individual’s failure to report
                                                    employment. While there are other types
                                                    of workers’ compensation fraud, such as
                                                    claiming an injury occurred on the job
                                                    when in fact it occurred elsewhere, most of
                                                    our cases involve someone lying in order to
                                                    continue receiving benefits.

The Office of Workers’ Compensation Programs (OWCP) administers FECA. Because
FECA is intended to provide wage-replacement benefits to employees who cannot
physically continue working, OWCP requires recipients to submit reports of earnings
from employment or self-employment. OWCP uses those reports to assist in
determining whether an individual has a continuing entitlement.

Congress amended FECA in 1994 to provide that any individual convicted of
committing fraud in connection with the application for or receipt of workers’
compensation benefits loses his entitlement to any future benefits. The amendment
also provided that individuals who were incarcerated based on a felony conviction
would not receive benefits while incarcerated, although eligible dependents could
receive compensation at a reduced rate.




page 37                                                                April 1 ~ September 30, 2006
                                                                    Investigations



Workers’ Compensation Results During this Reporting Period––Updates

The following updates occurred on workers’ compensation cases reported in our last
semiannual.

 A former TVAN employee, previously indicted by a federal grand jury for the Northern

   District of Alabama on one count of filing a false statement to obtain workers’
   compensation benefits, pled guilty to a charge that he falsely reported to OWCP that
   he was not employed or self-employed. Projected long-term savings from this case,
   based on his guilty plea, total over $500,000.

 A former TVAN employee, who previously pled guilty to four felony counts of making

   false statements to obtain workers’ compensation benefits, was sentenced during
   this reporting period to 12 months’ home detention and 60 months’ probation, and
   ordered to pay $98,015 in restitution. OWCP also declared a forfeiture on an
   additional $34,282 in benefits he had received. Based on the conviction, the former
   employee lost his right to further benefits, which will reduce TVA’s future workers’
   compensation costs by almost $800,000.

 OWCP declared an overpayment of $138,121 based on the previous conviction and

   sentencing of a former Fossil Power Group employee who filed false statements to
   obtain benefits. We estimate the long-term savings based on the former employee
   not receiving future benefits will exceed $600,000.

Workers’ Compensation Results During This Reporting Period––New Cases

In addition to the above updates, results in the workers’ compensation area during this
reporting period included the following.

 A workers’ compensation recipient was indicted in state court on charges of theft of

   property in obtaining prescription drug benefits and unlawful possession of a
   controlled substance. The recipient allegedly obtained a large number of
   prescription pills through the workers’ compensation program from several
   physicians.




TVA Office of the Inspector General                                                  page 38
Investigations



 Two former employees failed to report their income to OWCP. A former electrician

   was performing part-time electrical work for a company owned by his relatives, while
   a former painter owned and operated a lawn care business. Both reported to
   OWCP, however, that they had no employment or income. Although prosecution
   was declined in both cases, OWCP declared forfeitures of $128,207 and $101,539,
   respectively, for amounts paid to the former electrician and painter during the
   periods covered by the falsified forms.

 During an investigation into a workers’ compensation recipient’s entitlement to

   benefits, we found he had been convicted in state court of first degree attempted
   robbery and sentenced to 20 years’ imprisonment. OWCP subsequently suspended
   his benefits in their entirety from the date of his incarceration until his release,
   because he had no dependents. The projected savings to TVA over this 20-year
   period is $515,320.

 We also referred three cases to OWCP for appropriate action where a computer

   match showed their income was greater than 25 percent of their loss of wage
   earning capacity.

CONTRACTOR FRAUD

We continue to pursue various allegations of contractor fraud. Results during this
reporting period were as follows.

Falsified Timesheets

Our investigation substantiated an allegation that a contractor employee was frequently
leaving the work area early and falsifying his timesheet to show he worked eight hours
on those days. Although prosecution was declined, his employment at TVA was
terminated.

Temporary Living Expenses

We continued reviewing temporary living expenses paid to contractor employees.
Those expenses are intended to reimburse contractor employees on temporary
assignment who maintain both a temporary residence and a permanent residence



page 39                                                            April 1 ~ September 30, 2006
                                                                     Investigations



located more than a certain distance from the TVA site. To obtain temporary living
expenses, contractor employees must certify that they maintain both a permanent and
a temporary residence. During this reporting period, we closed two per diem cases as
follows.

 A contractor supervisor claimed a permanent residence that belonged to his

   daughter. Although criminal charges were dismissed due to a faulty indictment, TVA
   recovered $25,560 from the contractor.

 Another contractor employee claimed as a permanent residence a home that had

   been sold at foreclosure. Although prosecution was declined, the contractor
   reimbursed TVA $31,453.

EMPLOYEE INVESTIGATIONS

We conducted several investigations and referred to management numerous issues
involving employee conduct during this reporting period. The issues included
IT security, ethics, and travel card misuse. Illustrative examples follow.

IT Security Violation

An allegation that a TVA employee might be involved in the possession and distribution
of child pornography was not substantiated. An examination of his computer, however,
revealed several violations of TVA policy. The employee was suspended for five days as
a result of our findings.

Government Travel Card

We continue to conduct data mining of TVA records to identify anomalies that could
show fraud, waste, or abuse. Our data mining includes credit card payments, contract
records, and other available on-line data. During this reporting period, we identified a
TVA employee who used her government travel card for travel advances and personal
travel, in violation of TVA policy. Her government credit card was cancelled, and she
was suspended for ten days.




TVA Office of the Inspector General                                                page 40
Investigations



Use of TVA Time to Further a Fraud

An investigation revealed a TVA employee used TVA time and property to further a
fraud against a third party. The employee sold equipment he did not own to a third
party for $15,000. The employee used TVA time and property to facilitate this scheme.
The employee retired before action was taken against him.

Sentencing Update

We previously reported a TVA employee pled guilty to using TVA purchasing cards to
obtain services and merchandise for herself and members of her family, such as color
televisions, storage sheds, and other items, over nearly a three-year period. During this
reporting period, she was sentenced to 21 months’ imprisonment, 3 years’ supervised
release, and ordered to pay $85,759 in restitution. In addition, the TVA organization
has taken corrective action to prevent any similar schemes.

Intimidation and Harassment Allegation

We investigated an allegation that operators at a nuclear plant were not free to express
concerns without severe consequences because allegedly unjustified actions were
taken over a year-and-a-half period against individuals with operator licenses and
disciplinary actions taken in response to a reactor trip were inappropriate. Our review
did not indicate any pattern of misconduct in connection with either of these matters.

TASK FORCES

We recognize the importance of sharing investigative resources and information with
other federal agencies and task forces in order to focus enhanced law enforcement
resources by applying the most effective criminal and civil statutes against individuals
and companies who are breaking the law. During this period, we continued to provide
investigative resources to the Environmental Crimes Joint Task Force, a Health Care
Fraud Task Force, and the Joint Terrorism Task Force.




page 41                                                         April 1 ~ September 30, 2006
                                                                        Investigations



Joint Terrorism Task Force (JTTF)

We continued our participation on the JTTF, led by the FBI’s Knoxville Field Division.
Because of TVA’s critical, energy-related infrastructure, we have devoted one special
agent full-time to the task force and have committed audit support on an as-needed
basis. As previously stated by FBI Director Robert S. Mueller, “the JTTFs have played a
central role in virtually every terrorism investigation, prevention, or interdiction within the
United States . . . JTTFs team up FBI agents with police officers, members of the
Intelligence Community, Homeland Security, and other federal partners to coordinate
counterterrorism investigations and share information. They are also a critical conduit
between the FBI and the officer on the beat.”

Health Care Fraud Task Force

We continued our participation on the Health Care Fraud Task Force sponsored by the
United States Attorney for the Eastern District of Tennessee. TVA operates a
self-insured health benefits plan, and claims of health care fraud involving TVA and
others are investigated by this task force. The task force includes representatives from
the investigative arms of federal, state, and local agencies and BCBST’s Special
Investigations Unit.

Environmental Crimes Joint Task Force

The Environmental Crimes Joint Task Force, which also is sponsored by the United
States Attorney for the Eastern District of Tennessee, is comprised of members from
numerous federal and state agencies. Our participation on this task force helps
support the TVA goal of supporting a thriving river system.




TVA Office of the Inspector General                                                     page 42
Investigations




                                                           Closed Cases by Area
                                                                T o t al = 1 0 5


                                                                                 R i v e r Sy s t e m
                                                                                 O p e ra t i o n s &
                              A d m i n i s t ra t i v e                         E n v i ro n m e n t
                                  S e rv i c e s                                       10.5%
                                      20%

                                                                                                                F o s s i l Po w e r
                                                                                                                     G ro u p
                                                                                                                       21%

                          A l l O t h e rs
                              31.5%                                         T V A N u cl ear
                                                                                 17%




                            Concerns Reported to OIG Empowerline
                                         T o t al = 1 0 4



                                                     An o n y m o u s                                O t h er
                                                          48%                                         2%


                                                                                                                             TV A
                                                                                                                         E m pl o y e e s
                                                                                                                             26%



                 F o rm e r
          T V A & C o n t ra c t o r                 C o n t ra c t o r   G e n e ra l P u b l i c
               E m pl o y e e s                      E m pl o y e e s             15%
                    6%                                    3%




page 43                                                                                                     April 1 ~ September 30, 2006
                                               Legislation and Regulations



Under the IG Act of 1978, one of the IG’s responsibilities is to review
legislation and regulations which may have an impact on the economy and
efficiency in the administration of TVA programs and operations.
Accordingly, we follow legislative areas of interest pertaining to the IG
community and TVA. The TVA IG, Richard W. Moore, serves on the
Legislation Committee for the PCIE, and we worked with the PCIE to
provide comments on legislation involving the IG community. Legislation
we reviewed during this reporting period included legislation providing greater public
visibility of federal government expenditures, proposed new legislation granting the
public better access to government records, and legislation introduced to provide for
notification to individuals whose sensitive personal information has been compromised.




TVA Office of the Inspector General                                               page 44
page 45   April 1 ~ September 30, 2006
     APPENDICES




TVA Office of the Inspector General   page 46
Appendix 1



Index of Reporting Requirements Under the Inspector General Act
REPORTING REQUIREMENT                                                                                     PAGE



Section 4(a)(2)   Review of Legislation and Regulations                                                     44


Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                         18-42


Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies         18-42


Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed                                           Appendix 4


Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                  That Have Resulted                                                                 Appendix 5


Section 5(a)(5)   Summary of Instances Where Information Was Refused                                      None
and 6(b)(2)


Section 5(a)(6)   Listing of Audit Reports                                                           Appendix 2


Section 5(a)(7)   Summary of Particularly Significant Reports                                            18-42


Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                  That Funds Be Put to Better Use                                                    Appendix 3


Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                 Reporting Period                                                                         None


Section 5(a)(11) Significant Revised Management Decisions                                                 None


Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed              None


Section 5(a)(13) Information under Federal Financial Management Improvement Act of 1996                   None




page 47                                                                             April 1 ~ September 30, 2006
                                                                                 Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                  QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                        COSTS       COSTS     BETTER USE

CONTRACT

2006-001C-02
04/03/06         Framatome Contract Issues

2005-049C
04/06/06         Foster Wheeler Energy Corporation -
                 Contract 99999847

2006-001C-01
04/20/06         Framatome ANP, Inc.                      $78,653       $2,010

2006-005C-01
04/27/06         Pinkerton Government Services
                 Contracts 99999385, 17952, and
                 17935                                    104,599      104,599

2006-018C
05/17/06         L.E. Myers Co. - Request for Rate
                 Increase

2005-004C-03
06/01/06         Welding Services, Inc. - Review of Fossil
                 Power Invoices                            539,194      91,678

2006-010C
06/13/06         Bechtel Employee Recognition
                 Expenditures                             120,499      120,499

2006-017C
06/15/06         Preaward of Williams Plant Services,
                 LLC Proposal for Maintenance and
                 Modification Services at TVA
                 Nuclear Plants                                                     $492,000

2006-024C
08/07/06         Nol-Tec Systems, Inc. - Request for
                 Rate Increase                            100,642                  2,436,000

2006-005C-02
08/09/06         Pinkerton Government Services
                 Contracts 99999385 and 17952 -
                 Excessive Overtime Costs                                          3,500,000

2006-001C-03
08/10/06         Framatome ANP, Inc.                        5,545

2006-012C
08/10/06         Welding Services, Inc. - Subcontract
                 with Stone & Webster Construction
                 (Contract No. 14703)                     450,165      125,941

2006-027C
08/10/06         Preaward Audit of Panamerican
                 Consultants, Inc.

2006-026C
08/17/06         Preaward Audit of TRC Garrow
                 Associates, Inc.




TVA Office of the Inspector General                                                     page 48
Appendix 2



AUDIT REPORT
NUMBER                                              QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                    COSTS       COSTS     BETTER USE


CONTRACT (cont.)
2006-023C
08/22/06       National Electric Coil                                             $4,400,000

2006-028C
08/22/06       Voith Siemens Hydro Generation, Inc.
               Contract 5598 - Retroactive Billing
               Adjustments                               $12,181

F I NA N C I A L

2006-020F
05/17/06       Review of TVA’s Second Quarter
               FY 2006 Financial Information

2006-031F
08/14/06       Review of TVA’s Third Quarter
               FY 2006 Financial Information

INFORMATION TECHNOLOGY

2006-008T
05/30/06       Postini E-mail Protection Service -
               Logical, Physical, and General Controls                               11,400

2006-019T
05/30/06       Pre-Implementation Review of TVA’s
               Passport Upgrade

2006-037T
09/18/06       Federal Information Security
               Management Act Evaluation

2006-035T
09/21/06       Assessing TVA’s Efforts to Protect
               Sensitive Information

2006-034T-01
09/25/06       Security of TVA’s Network Perimeter -
               Blind Penetration Testing

2006-032T
09/26/06       Physical Security Review of Iron
               Mountain

PERFORMANCE

2006-021F
06/26/06       Green Power Accreditation
               Report - 2005

2006-002C
08/21/06       TVA’s Contracting Process

TOTAL          26                                   $1,411,478     $444,727    $10,839,400




page 49                                                             April 1 ~ September 30, 2006
                                                                            Appendix 3



Audit Reports Issued With Questioned Costs
                                                                      QUESTIONED COSTS
                                                         NUMBER     TOTAL    UNSUPPORTED




A.   For which no management decision has been
     made by the commencement of the reporting period      0              $0          $0

B.   Which were issued during the reporting period         8       $1,411,478    $444,727

Subtotals of A and B                                       8      $1,411,478    $444,727

C.   For which a management decision was made during
     the reporting period                                  6        $860,671     $318,786

     (i) Dollar value of disallowed costs                  5        $782,018     $316,786

     (ii) Dollar value of costs not disallowed             1         $78,653       $2,010

D.   For which no management decision has been made by
     the end of the reporting period                       2        $550,807     $125,941

E.   For which no management decision was made within
     six months of issuance                                0              $0          $0




TVA Office of the Inspector General                                               page 50
Appendix 3



Audit Reports Issued With Recommendations for Better Use of Funds
                                                                             NUMBER              DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period                            0                              $0

B.   Which were issued during the reporting period                               5                   $10,839,400

Subtotals of A and B                                                             5                 $10,839,400

C.   For which a management decision was made during
     the reporting period                                                        3*                   $4,003,400

     (i) Dollar value of costs agreed to by management                           3                    $2,790,529

     (ii) Dollar value of costs not agreed to by management                      1                    $1,212,871

D.   For which no management decision has been made by
     the end of the reporting period                                             2                    $6,836,000

E.   For which no management decision was made within
     six months of issuance                                                      0                              $0


* The total number of reports differs from the sum of C(i) and C(ii) when the same reports contain both costs
  disallowed and not disallowed by management.




page 51                                                                               April 1 ~ September 30, 2006
                                                                                                   Appendix 4



Audit Reports With Corrective Actions Pending
Final corrective actions on recommendations in 1 contract compliance audit, 1 operational audit, 3 financial audits, and
11 IT audits have not yet been fully implemented; however, management is working toward implementation in each case.

AUDIT REPORT
NUMBER
AND DATE                DESCRIPTION




2001-074T               Application Review of Pegasys
01/07/02                This report contained recommendations regarding facility access control. The Pegasys upgrade
                        project has been approved by TVA Management and a contract has been awarded. Currently,
                        the IT infrastructure for the upgrade is being implemented. HSPD 12 will be followed as a best
                        practice, and the implementation date for hardware replacement is tentatively planned to begin
                        in January 2007.

2003-004C               A&G Tree Service, Inc.
03/30/04                TVA has asserted a claim against A&G for the amount of $638,542 for what appears to be
                        unsupported billings under this contract. A formal Contracting Officer’s Decision has been
                        rendered which concurs with TVA’s claim. A&G has now filed two lawsuits against TVA for
                        (1) payment amounts withheld and (2) appealing the Contracting Officer’s Decision. A
                        Contracting Officer’s Decision was issued in March 2005 that concurred with the audit findings
                        and directed A&G to reimburse TVA for overpayments of $638,542 under a closed contract.
                        During May 2005, TVA stopped A&G from performing work under a subsequent contract and
                        recovered part of TVA’s damages by withholding payment on invoices under the subsequent
                        contract totaling $88,362. A&G has sued TVA under the subsequent contract for the withheld
                        payments and has filed suit challenging the Contracting Officer’s Decision. The timeframe for
                        resolution of these lawsuits is indeterminate.

2003-024F               Review of TVA’s Accounts Receivable and the Allowance for Doubtful
11/18/03                Accounts
                        This report contained recommendations to (1) develop, document, and implement guidelines for
                        estimating the allowance for doubtful accounts; (2) ensure reconciliation of the general ledger
                        and subsidiary accounts include documentation of corrections and adjustments made during
                        power and nonpower reconciliations and management review and approval of all nonpower
                        adjusting journal entries; (3) make modifications to the write-off process to ensure invoices are
                        written off in a timely manner; (4) develop and implement procedures to track written off
                        accounts for future collection efforts or business decisions; (5) ensure accounts are written off in
                        accordance with policy; and (6) review and update Accounting Procedure 25 to clarify the
                        criteria for referring past due customers to the General Counsel’s office. TVA management
                        agreed to implement our recommendations and has transitioned the responsibilities to a new
                        group. Processes and procedures will be evaluated and updated by October 15, 2006, and a
                        new system is planned.

2003-040T               Nuclear Plant IT Security
03/30/04                This report included recommendations to strengthen logical and physical controls at a nuclear
                        generation facility. TVA management is implementing planned remediation actions that are
                        expected to be completed November 30, 2006.

2003-056T               Pre-Implementation Review of TVA’s New Fuelworx Application
03/18/04                This report included a recommendation to strengthen user access controls. The
                        recommendation will be addressed as part of a TVA-wide effort that is expected to be
                        completed in December 2006.

2004-059T               Pre-Implementation Review of Security of New Servers for IBS, Fixed Assets,
11/24/04                and BOSS Applications
                        This report included recommendations that TVA management take action to improve the
                        security of the servers. TVA management is expected to complete planned remediation actions
                        by December 31, 2006.




TVA Office of the Inspector General                                                                              page 52
Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE       DESCRIPTION




2004-060T      IT Security Review of New Servers for HR and PR Applications
11/19/04       This report included recommendations that TVA management take action to improve the
               security of the servers. TVA management is expected to complete planned remediation actions
               by December 31, 2006.

2005-009T      Review of TVA’s Information Factory Application, Access, and General Controls
06/30/05       This report included recommendations to strengthen controls for the system. TVA management
               is implementing planned remediation actions which are expected to be completed by March 30,
               2007.

2005-012T      Integrated Business System Application, Access, and General Controls
06/30/05       This report included recommendations to strengthen controls over the general ledger system.
               Remediation has been completed on 12 recommendations. TVA management is implementing
               planned remediation actions for the remaining four items which are expected to be completed
               by March 30, 2007.

2005-034F      Internal Controls Over Time Reporting
01/30/06       The Controller agreed to rewrite AP 14 to emphasize specific information applicable to areas of
               role definitions, expectations, and accountability and continuing periodic refresher training for
               SAs, as well as implementing a mandatory on-line training module for SAs. The Controller is
               currently developing SOX process documentation related to the time reporting process.

2005-039T      eWorkplace Application, Access, and General Controls
01/30/06       This report included 15 recommendations to strengthen controls over the time reporting system.
               Weaknesses were identified in the areas of processing controls, direct data changes, logical
               access controls, change management, and backup and contingency planning. TVA
               management is implementing planned remediation actions which are expected to be completed
               by December 2006.

2005-052F      Followup Review of TVA’s Hospitality Program
02/23/06       The Controller addressed our recommendations by (1) testing internal controls in related
               business processes, (2) monitoring trends in hospitality expense through the monthly reporting
               process, (3) revising form TVA 17901 to make reputation risk a separate field on the form and
               require a response, and (4) reviewing and scrutinizing each individual miscellaneous voucher
               request for hospitality expense. The Controller agreed with our recommendation to revise BP 7
               and will include specific references to form TVA 17901 and the use of the purchasing card for
               hospitality spending. The Controller will further clarify what types of expenditures are
               considered hospitality.

2005-055T      Integrated Contractor System Logical Access and General Controls
01/24/06       This report contained 13 recommendations to strengthen logical access and general controls for
               TVA’s Integrated Contractor System. TVA management agreed with our recommendations. All
               remediation is targeted for completion by October 31, 2006.




page 53                                                                     April 1 ~ September 30, 2006
                                                                                           Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE            DESCRIPTION



2005-059F           Summary of Sarbanes-Oxley 404 Process and Controls Documentation
12/06/05            Reviews
                    The CFO’s organization has agreed to implement changes to various business processes and
                    to update the process documentation contained in RCTS to implement our recommendations.
                    CFO’s organization identified their planned process changes by making additions to the
                    Summary of Aggregated Gaps (SAG) Report. The planned process improvements on the SAG
                    Report are scheduled to be completed by various dates in FY 2007. As agreed, organizations
                    have made changes to business processes and/or the CFO organization updated the controls
                    documentation in RCTS for the business processes. However, additional changes are likely to
                    be needed as the planned remediation of internal control weaknesses identified on the SAG
                    Report is completed.

2005-060T           Fuelworx Logical Access and General Controls
01/24/06            This report contained nine recommendations to strengthen logical and general controls for TVA’s
                    fuel management application. TVA management agreed with our recommendations and has
                    (1) completed final action on four and (2) provided an action plan for implementing the other
                    five. The targeted completion date is December 2006.

2006-003T           IT Security Controls Over Procurement Contracts
01/31/06            This report contained recommendations to improve controls for managing IT security in
                    Procurement contracts. Management agreed with the findings and recommendations and
                    initiated corrective actions which should be completed by January 2007.




TVA Office of the Inspector General                                                                      page 54
Appendix 5



Investigative Referrals and Prosecutive Results*


Referrals

          Subjects Referred to U.S. Attorneys                                                        3
          Subjects Referred to State/Local Authorities                                               0


Results

          Subjects Indicted                                                                          1
          Subjects Convicted                                                                         1
          Referrals Declined                                                                         7




* These numbers include task force activities and joint investigations with other agencies.




page 55                                                                                April 1 ~ September 30, 2006
                                                                                                         Highlights



                                               SEPT 30,       MAR 31,        SEPT 30,           MAR 31,     SEPT 30,
                                                 2006          2006            2005              2005         2004

AUDITS
AUDITS IN PROGRESS
Carried Forward                                   20*             24              30               28           29
Started                                           23              22              41               35           38
Canceled                                           (1)             3              11                2            5
Completed                                        (26)             22              29               31           34
In Progress at End of Reporting Period            16              21              24*              30           28

AUDIT RESULTS (Thousands)
Questioned Costs                               $1,411         $774           $6,422             $8,859      $1,763
Disallowed by TVA                                 782         1,122           4,969              7,586       2,948
Recovered by TVA                                  793         1,641           5,016**            2,312       1,113

Funds to Be Put to Better Use               $10,839            $700          $5,634         $24,306         $1,471
Agreed to by TVA                              2,790             633           1,251          20,181          7,021
Realized by TVA                               2,287             740           6,002           7,886          7,196

OTHER AUDIT-RELATED PROJECTS
Completed                                          11            11               10                3            8
Cost Savings Identified/Realized (Thousands)       $0           $36               $0               $0           $0

I N V E S T I G AT I O N S * * *
INVESTIGATION CASELOAD
Opened                                            70             80              84                84         118
Closed                                           105             71              84               103         163
In Progress at End of Reporting Period           113            148             157               157         176

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                       $643.1      $2,966.5        $1,880.3             $216.3     $460
Savings                                         1,038.7       1,625.4            36              1,581.5      447.7
Fines/Penalties                                      .5           6.2             6.7                 .4      451.6

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                           16             17              10               11           14
Actions Taken (# of Subjects)                       6              9              13               16           30
Counseling/Management
   Techniques Employed (# of Cases)                14             14              16               12           16

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                            3              5               8               12           25
Indicted                                            1              3               4                3            9
Convicted                                           1              3               5                4            3

INSPECTIONS
Completed                                          20             14             13                14           8
Cost Savings Identified/Realized (Thousands)       $0             $0           $118                $0        $226

  * Adjusted from previous semiannual report.
 ** Includes excess funds recovered by TVA of $33,219.
*** These numbers include task force activities and joint investigations with other agencies.




TVA Office of the Inspector General                                                                            page 56
OIG LEADERSHIP PHILOSOPHY
        The TVA OIG strives to be a high performing
        organization made up of dedicated individuals
        who are empowered, motivated, competent, and
        committed to producing high quality work that
        improves TVA and life in the Valley.

        Each of us has important leadership,
        management, team, and technical roles.

        We value integrity, people, open communication,
        expansion of knowledge and skills, creative
        problem solving and collaborative
        decisionmaking.
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
